DOE/IG-0489




               AUDIT
              REPORT


                               Americium/Curium Vitrification Project
                                             At The
                                       Savannah River Site




                                            NOVEMBER 2000




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                                            November 28, 2000


MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman (Signed)
               Inspector General

SUBJECT:       INFORMATION: Audit Report on "Americium/Curium Vitrification Project at the
               Savannah River Site"


BACKGROUND

In 1994, the Defense Nuclear Facilities Safety Board (DNFSB) recommended that the Department of
Energy (Department) take action to stabilize the highly radioactive Americium/Curium solution (Am/Cm)
stored at the Savannah River Site's F-Canyon Facility. The purpose of this recommendation was to reduce
safety and health risks to Department employees and the public. In 1995, the Department made a
commitment to the DNFSB to stabilize approximately 14,440 liters of Am/Cm in inventory at the Savannah
River Site by September 1998.

A demonstration project for stabilizing the Am/Cm through vitrification was established at the Savannah
River Site, but development of the vitrification technology proved more formidable than originally
estimated. When the Department realized it would be unable to meet the September 1998 date, it proposed,
and the DNFSB accepted, a new commitment date of September 2002.

The objective of this audit was to determine whether the Department will meet its commitment to stabilize
the Am/Cm by September 2002.

RESULTS OF AUDIT

The Department will not meet its 2002 commitment date for stabilization of the Am/Cm solution. In fact,
in June 2000, during the course of our audit, the Department submitted a revised commitment date of
December 2005 to the DNFSB. However, we concluded that this date is overly optimistic and that
stabilization is not likely to be completed until well after 2005. The audit disclosed that the Department
committed itself to stabilization dates before knowing whether the dates were achievable. Furthermore, the
Department did not establish separate funds for the stabilization project. Delays in the stabilization of Am/
Cm will prolong the safety risks associated with the solution, escalate the cost of vitrification, and hinder
the decommissioning of the F-Canyon Facility.

MANAGEMENT REACTION

Management did not agree with our conclusion. In response to a draft of this report, management stated
that the December 2005 commitment date is achievable and that there is no firm indication of a delay as a
result of qualifying the Am/Cm for disposal. Nevertheless, management agreed, as qualification issues
arise, to assess the impact on the commitment date and to take appropriate action. Management also agreed
to avoid submitting completion dates on future projects until a project plan has been thoroughly developed.
However, management did not agree to establish the Am/Cm project as a line item project to ensure that it
will receive dedicated funding, stating that doing so would reduce financial flexibility and would represent
a deviation from the Department's budgeting and accounting procedures.
                                                     -2-


We disagree with management's contention that the December 2005 commitment date is achievable and
that there is no firm indication of a delay. We noted that a study performed by the Westinghouse Savannah
River Company (Westinghouse) indicated that it would take between 48 and 60 months to qualify the Am/
Cm for the Federal repository. However, before starting "qualification runs" on the vitrification equipment,
an assessment must be done to determine how the Am/Cm will perform under repository conditions.
Westinghouse estimates that it would take 24 months to perform this assessment. Consequently, even if the
Department directed Westinghouse to begin this assessment immediately, it would not be completed until
November 2002, which is 12 months beyond the current schedule. Under the circumstances, based on the
Department's own documentation, we do not believe that the December 2005 date is a reasonable target.

We do agree that converting the Am/Cm project to a line item project would reduce funding flexibility.
However, doing so would provide a dedicated funding stream, which would promote completion of the
project in the least possible time. We believe that the project management benefits associated with
designating the Am/Cm project as a line item substantially exceed the cost of any real or perceived loss of
funding flexibility.


Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science, and Environment
AMERICIUM/CURIUM VITRIFICATION PROJECT AT THE SAVANNAH
RIVER SITE


TABLE OF
CONTENTS



                  Overview

                  Introduction and Objective ..........................................................1

                  Conclusions and Observations.................................................. 1


                  Stabilization Commitment Will Not Be Met

                  Details of Finding.......................................................................3

                  Recommendations and Comments ...........................................6


                  Appendix

                  Scope and Methodology.............................................................9
OVERVIEW

INTRODUCTION AND   With the end of the Cold War, the Department's mission shifted from
OBJECTIVE          the production of nuclear weapons to the management and storage of
                   nuclear materials. This left the Department with about 14,400 liters of
                   highly radioactive Americium/Curium solution (Am/Cm) stored within
                   a single tank in the Savannah River Site's F-Canyon Facility. In 1994,
                   the Defense Nuclear Facilities Safety Board (DNFSB) recommended
                   that the Am/Cm be converted to a form suitable for safe interim storage.
                   Stabilization of the Am/Cm was considered especially urgent to avoid
                   increased safety and health risks to workers and the public. In 1995, the
                   Department made a commitment to the DNFSB to stabilize the Am/Cm
                   by September 1998.

                   In 1995, after analyzing several alternatives, the Department issued a
                   record of decision selecting vitrification as the preferred method to
                   stabilize the Am/Cm. Vitrification is a process in which the Am/Cm is
                   combined with specially formulated glass frit, heated, and poured into
                   stainless-steel canisters, where it then solidifies into glass logs. A
                   demonstration project for vitrifying the Am/Cm was established at the
                   Savannah River Site, but development of a suitable melter proved more
                   formidable than originally estimated. When the Department realized
                   that it would be unable to meet its commitment date, it proposed, and
                   the DNFSB accepted, a new commitment date of September 2002.

                   The objective of this audit was to determine whether the Department
                   will meet its commitment to stabilize the Am/Cm by September 2002.

CONCLUSIONS AND    The Department will not meet its commitment to stabilize the Am/Cm
OBSERVATIONS       by September 2002. The Department submitted a revised commitment
                   date of December 2005 to the DNFSB in June 2000. However,
                   stabilization is not likely to be completed until after 2005. The
                   Department committed itself to stabilization dates before knowing the
                   dates were achievable. Furthermore, the Department did not establish
                   separate funds for the vitrification project. Delaying the stabilization of
                   Am/Cm will prolong the safety risks associated with the solution,
                   escalate the cost of the vitrification project, and hinder the
                   decommissioning of the F-Canyon Facility.

                   Two prior audit reports identified similar problems in the planning and
                   funding of Savannah River Site projects. GAO/RCED-99-69, Nuclear
                   Waste: Process to Remove Radioactive Waste From Savannah River
                   Tanks Fails to Work (April 1999), identified problems with "fast track"
                   project management and the budgetary treatment of the In-Tank



Page 1                                                       Introduction and Objective/
                                                          Conclusions and Observations
         Precipitation Project. Design and construction were done concurrently
         and project managers began construction before the design was
         completed. Also, GAO found that the Department paid for the project
         with operating funds instead of capital construction funds, which caused
         the project to receive less oversight and visibility. In addition, an Office
         of Inspector General report, ER-B-95-04, Report on the Audit of the
         Replacement High Level Waste Evaporator at the Savannah River Site
         (June 26, 1995), found that the Replacement Evaporator Project incurred
         delays and cost increases that could have been avoided if the Department
         had adequately planned, contracted, and funded the project.

         This audit identified significant issues that management should consider
         when preparing its yearend assurance memorandum on internal controls.




                                                     (Signed)
                                               Office of Inspector General




Page 2                                           Conclusions and Observations
Am/Cm Will Not be   The Department will not meet its current commitment to stabilize the
Stabilized by       Am/Cm by September 2002. During the audit, the Department
September 2002      approved a new baseline with a project completion date of September
                    2004 and a total project cost of $129 million. The new baseline reflects
                    a 2-year delay and a $69 million increase in cost. The revised
                    completion date includes the final design and construction of the
                    vitrification system, but not the vitrification itself, which will take
                    approximately one year. The Department submitted a new
                    implementation plan to the DNFSB with a December 2005 commitment
                    date. However, there are indications that the December 2005 date will
                    also not be achievable.

                    A change in the project scope to address disposal requirements will
                    push stabilization beyond the proposed December 2005 commitment
                    date. The scope of the vitrification project focused on recovery of
                    Am/Cm for future use and did not address disposal requirements. In
                    July 2000, the Under Secretary of Energy signed a disposition decision
                    memorandum directing the Department to continue with the
                    vitrification project and ensure that the vitrified material is acceptable
                    for disposal in the Federal repository. This decision was supported by a
                    Departmental study that concluded the Am/Cm is not needed and its
                    retention is not economically justified.

                    Additionally, a study performed by the Savannah River Site's
                    contractor, Westinghouse Savannah River Company (Westinghouse)
                    indicates that the process necessary to certify the material for disposal
                    in the repository will take between 48 months and 60 months.
                    Although some of the certification activities can be performed
                    concurrently with already scheduled project activities, certain
                    certification activities need to be finalized prior to particular project
                    milestones. For example, the Department must assess how the vitrified
                    material will perform under repository conditions before starting
                    "qualification runs" of the vitrification equipment. This assessment
                    must include corrosion testing, radiation damage evaluation,
                    thermodynamic data generation, and dissolution model development.
                    Westinghouse estimates that the assessment will take approximately 24
                    months to complete.

                    Project completion will be delayed at least 12 months beyond
                    December 2005 in order to certify the material for disposal in the
                    Federal repository. As of November 2000, the Department had not
                    directed Westinghouse to begin certification activities. Even if the
                    24-month assessment began immediately, it would not be completed
                    until November 2002, which is 12 months beyond the current schedule

Page 3                                                                    Details of Finding
                              to begin the qualification runs. This will delay the completion of the
                              vitrification by 12 months. Other steps in the qualification process,
                              such as the addition of required monitoring and data collection
                              equipment, could further delay the process by up to three years.

Am/Cm Must be Stabilized      The DNFSB has authority, under 42 United States Code, Section
                              2286, to issue binding recommendations to the Department for
                              events or practices that may adversely affect public health and safety.
                              In May 1994, the DNFSB issued Recommendation 94-1 requiring
                              the Department to formulate a plan and begin stabilizing fissile
                              materials and other radioactive substances once used for weapons
                              manufacture. It was considered especially urgent to convert the Am/
                              Cm to a form more suitable for safe interim storage to avoid further
                              deterioration of safety and increased risks to workers and the public.
                              The DNFSB concluded that imminent hazards could arise within two
                              to three years unless certain problems were corrected.

                              The Department's original implementation plan committed to
                              stabilizing the Am/Cm by September 1998. When the Department
                              realized that it would be unable to meet this date, it revised the
                              implementation plan and proposed to complete stabilization of the
                              Am/Cm by September 2002. The DNFSB accepted the Department's
                              new commitment, but noted that it would continue to monitor the
                              Department's progress. In January 2000, the DNFSB issued
                              Recommendation 2000-1, which reiterated the urgency of
                              completing the Am/Cm stabilization.

Commitments Were Made         The Department will not meet its commitments regarding Am/Cm
Without Sufficient Planning   stabilization because it made commitments before knowing if they
                              were achievable, and did not establish a continuous level of funding
                              necessary to complete the project on time.

                              The Department committed to stabilizing the Am/Cm by 1998 and
                              2002 before it knew if the commitments were achievable. For
                              example, the Department's initial implementation plan, which
                              committed to stabilizing the Am/Cm by September 1998, was
                              contingent upon the Savannah River Site being able to develop a
                              vitrification process even though the Department had not yet selected
                              a preferred stabilization method. Once vitrification was selected, the
                              project schedule baseline was developed to fit the commitment date.
                              In an attempt to achieve this schedule, research and development was
                              performed concurrent with design and construction. To save more
                              time, the technical staff was restricted to the modification of an


Page 4                                                                           Details of Finding
         off-the-shelf bushing melter. When this concept was found to be
         unsuitable, approximately $8.3 million worth of design and
         construction activities were abandoned. An independent review
         team found that delays from excessive redesign and rework could
         have been avoided if design and construction had been preceded by a
         thorough research and development phase.

         In 1998, the Department revised its implementation plan while the
         Am/Cm project was being reassessed. The commitment date was
         extended to September 2002 to allow time to refocus research and
         development activities on a new cylindrical induction melter
         prototype. Then, the Department proposed to revise the commitment
         date again based on the latest project baseline. However, the scope
         of the project still does not take into account the time necessary to
         qualify the vitrified material for disposal in the Federal repository.

         Also, the Department did not establish separate funds for the Am/Cm
         Vitrification Project. Instead, the Department established a
         demonstration project, using site operating funds. This funding
         method extended the project schedule by at least 14 months. In
         August 1999, Westinghouse proposed a project baseline spending of
         $27.8 million in Fiscal Year (FY) 2000 and $23.2 million in
         FY 2001 with a project completion date of June 2003. Management
         used this baseline to prepare the project data sheet that was sent to
         Congress for the FY 2001 budget request. However, management
         never approved this baseline and required Westinghouse to develop
         another baseline assuming funding restraints through the remainder
         of the project. The new baseline proposed spending $18.6 million in
         FY 2000 and $16.2 million in FY 2001 with a project completion
         date of September 2004. Management approved this baseline in
         February 2000. Subsequently, management requested that
         Westinghouse prepare another baseline without funding restraints,
         but it has not been approved and has not been the basis of funding
         requests.

         Had the Department established the stabilization of Am/Cm as a line
         item project, it could have received dedicated funding and would not
         have had to compete for operating funds. Once research and
         development on the melter was completed, the concept of stabilizing
         Am/Cm via vitrification was successfully demonstrated in a pilot
         facility, and a construction subcontract was awarded. Thus, the
         project could be budgeted as a line item.




Page 5                                                     Details of Finding
Delays Prolong Safety     Delaying the stabilization of the Am/Cm will prolong the safety risks
Risks, Escalate Project   associated with the solution, escalate the cost of vitrification, and
Costs, and Hinder the     hinder the decommissioning of the F-Canyon Facility. Although the
Decommissioning of        Department has taken steps to reduce the risk of the Am/Cm in its
F-Canyon                  current storage configuration, its continued storage poses inherent
                          environmental, safety and health concerns. Liquid solutions such as
                          the Am/Cm pose the greatest hazards due to the higher possibility of
                          dispersal. For example, the loss of tank integrity, as might be caused
                          by corrosion or seismic action, would create an almost
                          insurmountable problem by spreading radioactive contamination.
                          Safety risks continue to escalate until stabilization is complete.

                          Also, as the project completion date is delayed, the overall cost of
                          the project continues to escalate. For example, $12 million of the
                          $69 million increase in the project cost was due to Westinghouse
                          delaying completion of the project until September 2004 because of
                          imposed funding restraints. Additionally, for each additional year
                          that the project continues, there is a minimum unavoidable annual
                          cost of $1.7 million. This is primarily attributable to the fully loaded
                          cost of dedicated management personnel assigned to the project.

                          Finally, delays in stabilizing the Am/Cm adversely affect the
                          decommissioning of the F-Canyon Facility. The canyon cannot be
                          decommissioned without removing the Am/Cm, which is the single
                          largest source of radioactivity in the facility. The vitrification of the
                          Am/Cm solution is a component of the critical path for completing
                          all operations in F-Canyon and allowing the facility to achieve
                          minimal surveillance and maintenance costs.

RECOMMENDATIONS           We recommend that the Manager, Savannah River Operations
                          Office:

                               1. Reevaluate the proposed December 2005 commitment date,
                                  taking into account the time needed to qualify the vitrified
                                  Am/Cm for disposal at the Federal repository;

                               2. Submit a revised project completion date to the Office of
                                  the Deputy Assistant Secretary for Project Completion,
                                  Office of Environmental Management that is based on an
                                  achievable baseline;

                               3. Establish the Am/Cm Vitrification Project as a line item
                                  project to ensure that it will receive dedicated funding; and


Page 6                                                     Recommendations and Comments
                           4. Avoid submitting estimated completion dates on future
                              projects until a project plan has been thoroughly developed.

MANAGEMENT REACTION   Management concurred in principle with Recommendations 1 and 2,
                      nonconcurred with Recommendation 3, and concurred with
                      Recommendation 4.

                      Recommendation 1. Management stated that there is no firm
                      indication of a delay as a result of qualifying the Am/Cm for
                      disposal. Nevertheless, as qualification issues arise, the Department
                      will assess the potential impact to the commitment date and take
                      appropriate action.

                      Recommendation 2. Management stated that the December 2005
                      commitment date reflects an achievable schedule. The schedule was
                      completed using a formal baseline change proposal, incorporated
                      technical and programmatic risk analyses, and was based on
                      35-percent design completion of the project.

                      Recommendation 3. Management stated that the current approach of
                      funding the Am/Cm project with operating funds meets the intent of
                      the recommendation. Management would not object to creating a
                      line item project for Am/Cm; however, doing so would result in a
                      loss of financial flexibility and would represent a deviation from the
                      Department's budgeting and accounting procedures. A line item
                      would significantly reduce the flexibility to redirect funds as
                      developments occur. A line item "fences" specific funds each fiscal
                      year that cannot be changed without Congressional action.
                      Additionally, one reason the project is funded out of operating
                      expense is that the facility is expected to operate only about one year.
                      Pursuant to the Department's Accounting Handbook, since the
                      facility does not meet the 2-year life required for capitalization,
                      procedures call for the project to be expensed. This effectively
                      drives a requirement for an operating expense funded project versus
                      a line item project.

                      Recommendation 4. Management stated it has already implemented
                      the use of project engineering and design line items. Future projects
                      will not be baselined until the project design is 35-percent complete.
                      The Department will continue to assess the progress of this project
                      through completion of design and construction. Additionally,
                      management has contracted Project Management Oversight
                      consultants to assess and validate the progress of this and other
                      projects.

Page 7                                                Recommendations and Comments
AUDITOR COMMENTS   Although management agreed in principle with Recommendations 1
                   and 2, their response did not indicate what corrective actions, if any, it
                   planned to take or when they would be completed.

                   Recommendation 1. We disagree with management's statement that
                   there is no indication of a delay in vitrifying the Am/Cm. The current
                   scope of the project does not include the requirement to qualify the
                   vitrified Am/Cm for disposal in the Federal repository. Westinghouse
                   project management believes that the certification process will delay
                   vitrification by at least 12 months.

                   Recommendation 2. We disagree with management's statement that the
                   December 2005 completion date is achievable. That date was
                   developed using the current project baseline, which does not include
                   efforts to qualify the material for disposal in the Federal repository.

                   Recommendation 3. We agree that converting the Am/Cm project to a
                   line item project would reduce funding flexibility. However, doing so
                   would provide dedicated funding to complete the project in the least
                   possible time. Also, there are no Departmental regulations that prohibit
                   the Am/Cm project from being established as a line item project. DOE
                   Order 430.1A, Life Cycle Asset Management, defines line item projects
                   as those separately identified project activities that are submitted for
                   funding and specifically reviewed and approved by Congress.
                   According to the Department's Deputy Director for the Office of
                   Budget, the 2-year life required for capitalization has no direct impact
                   on the type of funding a project should receive. Any project can be
                   established as a line item, and there is no requirement to budget a
                   project as an operating expense funded project just because it has a life
                   expectancy of less than 2 years.

                   Recommendation 4. Management's comments are responsive to the
                   recommendation.




Page 8                                                Recommendations and Comments
Appendix

SCOPE         The audit was performed from December 1999 to November 2000 at
              the Savannah River Site in Aiken, South Carolina. The audit covered a
              review of the activities associated with the Am/Cm Vitrification
              Project, from its inception in 1995 through November 2000.

METHODOLOGY   To accomplish the audit objective, we:

                   • Evaluated the requirement to stabilize the Am/Cm solution;

                   • Identified the date for which the Department had committed to
                     complete Am/Cm stabilization;

                   • Interviewed Savannah River Operations Office and
                     Westinghouse project management personnel regarding the
                     background of and future plans for the project;

                   • Reviewed project baselines and baseline change proposals for
                     the project;

                   • Evaluated the most current planning targets for Am/Cm
                     stabilization; and

                   • Assessed the impact of performance measures related to
                     Am/Cm vitrification.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. For example, we
              evaluated the Department's adherence to established requirements for
              project management as documented in the Savannah River Project
              Management Manual. Also, we evaluated the Department's compliance
              with portions of the Department of Energy Accounting Handbook
              related to budgeting and accounting for experimental and demonstration
              projects. Because our review was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at the
              time of our audit. In performing this audit, we did not rely significantly
              on computer generated data.




Page 9                                                      Scope and Methodology
          In accordance with the Government Performance and Results Act of
          1993, we determined that the Department has established performance
          measures tied to Am/Cm vitrification. Specifically, the Department has
          interim performance measures in place designed to accelerate the
          completion of the Am/Cm vitrification and stabilization activities. For
          FY 2000, the Department incentivized five specific tasks.

          Management waived an exit conference.




Page 10                                               Scope and Methodology
                                                                              IG Report No. : DOE/IG-0489

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
